U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Trenard Caldwell v. United States of America,
S.Ct. No. 20-5824

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
21, 2020, and placed on the docket on September 28, 2020. The government’s response is due
on October 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 30, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5824
CALDWELL, TRENARD
USA

JOSE BATISTA
7171 CORAL WAY
SUITE 400
MIAMI, FL 33155

